OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/MALAWI’S
COMPLIANCE WITH
FINANCIAL AUDIT
REQUIREMENTS REGARDING
FOREIGN RECIPIENTS
AUDIT REPORT NO. 4-612-06-012-P
July 31, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General




July 31, 2006


MEMORANDUM


TO:                  USAID/Malawi, Mission Director, Curt Reintsma

FROM:                Acting Regional Inspector General/Pretoria, Matthew Rathgeber /s/

SUBJECT:             Audit of USAID/Malawi’s Compliance with Financial Audit Requirements
                     Regarding Foreign Recipients (Report No. 4-612-06-012-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II.

The report has three recommendations to help USAID/Malawi improve its financial audit
program with regard to foreign recipients. In response to the draft report, the Mission
agreed with all three recommendations, provided action plans and target completion
dates. We consider that management decision have been reached for Recommendation
No. 2. Please provide the Office of Audit, Performance, and Compliance Division with
the necessary documentation to achieve final action on this recommendation. However,
management decision was not reached for Recommendation Nos. 1 and 3. Please
advise my office within 30 days of the actions you have planned or taken to implement
Recommendation Nos. 1 and 3 in this report.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Did USAID/Malawi ensure that planned financial
audits of foreign recipients were performed and submitted
in accordance with USAID rules and regulations? ............................................................ 4

     Audit Reports Not Submitted Within
     Required Timeframe .................................................................................................. 4

     Standard Statement of Work
     Not Used in Every Audit .............................................................................................. 6

Did USAID/Malawi ensure that annual audit plans
included all recipients from their award inventory
that required a financial audit? .......................................................................................... 8

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13

Appendix III– List of Delinquent Audits as of December 31, 2005 ........................... 16
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria performed this audit to determine whether
USAID/Malawi effectively managed its financial audit program in accordance with USAID
policies and procedures for fiscal years 2003, 2004, and 2005. (See page 3.)

USAID/Malawi did not effectively manage its financial audit program during the period
covered by the audit. Specifically, USAID/Malawi did not ensure that a) planned audits
of foreign recipients were performed in a timely manner; b) delinquent audits were
followed up on and completed; or c) standard statements of work were used. To help
correct and strengthen these problem areas, we recommended that USAID/Malawi 1)
develop and implement an audit tracking system to better monitor and ensure timely
submission of planned audits, 2) complete all identified delinquent audits, and 3) develop
a system to ensure that standard statements of work are included in future audit
agreements. (See pages 4 – 7.)

USAID/Malawi did ensure that foreign recipients requiring financial audits were included
in its annual audit plans. The Mission prepared and submitted its annual audit plans for
fiscal years 2003-2005 as required. Most of the Mission’s recipients were U.S.-based
organizations and were audited under the requirements of the Office of Management
and Budget’s Circular A-133. (See pages 8 -9)

The Mission agreed with all three recommendations, provided action plans and target
completion dates. However, for Recommendation No. 1, the Mission’s audit tracking
system provided does not assure that the audit instructions are sent to the recipient prior
to the recipients fiscal year end, and does not record any corrective action taken and
documented for audits that are not progressing as planned. For Recommendation No. 3,
the Mission’s response did not ensure that a standard statement of work is incorporated
into the audit contract. Therefore, we consider that management decision has been
reached for Recommendation No. 2 and that management decision has not been
achieved for Recommendation Nos. 1 and 3. (See page 10.)




                                                                                         1
BACKGROUND
USAID administers most of its foreign assistance programs by awarding contracts,
grants and cooperative agreements to U.S.-based and foreign organizations. In order to
help ensure accountability over funds given to such organizations, USAID and the Office
of Inspector General (OIG) have jointly developed a financial audit program as outlined
in Automated Directives System (ADS) 591. This section of the ADS requires that
USAID missions, in consultation with the cognizant Regional Inspector General (RIG),
ensure that required financial audits are conducted for foreign for-profit and nonprofit
organizations and host government entities (including any Mission-funded activities in
nonpresence countries), and local currency special accounts.

All foreign nonprofit organizations expending more than $300,000 of USAID funds during
their fiscal year are required to have an annual financial audit performed. A closeout
audit is required for recipients expending more than $500,000 throughout the life of an
award. Incurred cost audits must be performed annually of all foreign for-profit
organizations performing under direct awards or cost reimbursable host country
contracts and subcontracts. 1 To ensure that such audits are performed in a timely and
acceptable manner, Missions are required to develop annual audit plans which are
populated from inventories maintained by the Missions of all contracts, grants and
cooperative agreements, including cash transfer and nonproject assistance grants,
awards financed with host country owned local currency and activities in nonpresence
countries for use in determining audit requirements.

The audits are normally performed by independent auditors acceptable to the cognizant
RIG. The audit agreements between recipients and independent auditors contain a
standard statement of work. On occasion, USAID missions may contract directly with an
audit firm to conduct financial audits of foreign recipients or locally-incurred costs of
U.S.-based recipients. Audits of USAID recipients are required to be performed in
accordance with U.S. Government Auditing Standards as well as the OIG’s Guidelines
for Financial Audits Contracted by Foreign Recipients. Missions must ensure that such
audit reports are submitted to the cognizant RIG office for review and issuance no later
than nine months following the end of the audited period.

USAID/Malawi had eight non-U.S.-based recipients in fiscal year 2005. During 2003-
2005, the Mission reported budget authorizations totaling $107.7 million for programs in:

     •   Rural Income Growth.
     •   Increased constitutionalism and Advocacy.
     •   AIDS and Family Health.
     •   Basic Education.




1
  In terms of a 2005 revision to ADS 591, there is no automatic requirement for annual incurred cost audits
for foreign for-profit organizations. Instead, Missions are required to annually assess risks to determine
whether financial audits are warranted and the results of these risk assessments must be shared with the
cognizant RIG office.


                                                                                                         2
AUDIT OBJECTIVES
The Regional Inspector General/Pretoria’s (RIG/Pretoria) conducted this audit of the
Mission’s compliance with financial audit requirements regarding foreign recipients
because our experience is that USAID missions in eastern and southern Africa have
generally not been complying with Automated Directives System (ADS) 591 in terms of
ensuring that required financial audits of foreign recipients are conducted in a timely and
acceptable manner. To determine USAID/Malawi’s compliance with USAID rules and
regulations regarding financial audits of its foreign recipients, the audit was performed to
answer the following questions:

Objective No. 1: Did USAID/Malawi ensure that planned financial audits of foreign
recipients were performed and submitted in accordance with USAID rules and
regulations?

Objective No. 2: Did USAID/Malawi ensure that annual audit plans included all
recipients from its award inventory that required a financial audit?




                                                                                          3
AUDIT FINDINGS
Did USAID/Malawi ensure that planned financial audits of foreign
recipients were performed and submitted in accordance with
USAID rules and regulations?
USAID/Malawi did not ensure that all planned financial audits of foreign recipients 2 were
performed and submitted in accordance with USAID rules and regulations.

USAID/Malawi prepared annual audit inventories and plans as required for fiscal years
2003 - 2005. Since November 12, 2004, RIG/Pretoria has issued three financial audit
reports of USAID/Malawi recipients covering $2.6 million in expenditures of USAID
funds. Those audit reports included recommendations that addressed $114,432 in
questioned costs, nine internal control weaknesses, and nine instances of material
noncompliance with applicable laws and regulations.

While the above financial audit work has undoubtedly had a positive effect on
USAID/Malawi’s accountability over USAID funds expended by foreign recipients, there
were several areas in which USAID/Malawi could improve its recipient financial audit
program including timeliness, follow-up on delinquent audits, and use of a standard
statement of work.


Audit Reports Not Submitted
Within Required Timeframe
Summary: According to Agency regulations, USAID missions must submit audit reports
of foreign recipients to the cognizant Regional Inspector General (RIG) no later than nine
months after the end of the audited period. Only two of the nine audits planned for fiscal
years 2003-2005 were submitted to RIG/Pretoria for review on or before the required
deadline. This occurred because USAID/Malawi had not developed a system to track
and follow up on planned audits. Also, many audit reports had to be corrected and
resubmitted due to noncompliance with applicable standards and guidelines. Audits that
are not completed in a timely manner reduce USAID’s accountability over funds awarded
to recipients.

Automated Directives System (ADS) 591.3.2.1 requires that foreign nonprofit
organizations and host governments that expend $300,000 or more of USAID funds
during their fiscal year must have an annual audit conducted in accordance with the
Office of Inspector General’s Guidelines for Financial Audits Contracted by Foreign
Recipients (Guidelines). Paragraphs 1.16 and 2.3 of the Guidelines spell out the
timeframe within which recipients must submit final audit reports to the cognizant USAID
mission, which, in turn, will forward them to the RIG for review and issuance. According


2
   For the purpose of this audit, foreign recipients include non-U.S.-based grantees and
contractors who were awarded grants, contracts, cooperative agreements and implementation
letters.


                                                                                        4
to the Guidelines, the cognizant RIG must receive the audit report no later than nine
months after the end of the audited period.

USAID/Malawi’s annual audit plans prepared for fiscal years 2003, 2004, and 2005
included nine distinct planned financial audits of five different recipients. The breakdown
of the nine planned audits is presented in Table 1 below.

                                        Table 1
              Recipient Audits in Annual Plans for Fiscal Years 2003-2005

                  Number of recipients           # of annual         Totals
                                                audits in plans
                            1                          3                3
                            2                          2                4
                            2                          1                2
                            5                                           9

Of the nine planned audits, only two (22%) were initially submitted to RIG/Pretoria for
review on or before the required deadline. On average, audit reports were submitted
149 days (approximately five months) after they were due. As of December 31, 2005,
six of USAID/Malawi’s planned audits for fiscal years 2003-2005 were still outstanding.
A list of the awards with delinquent audits is included as Appendix III in this report.

The lack of timeliness was caused by several factors. One of the principal factors was
that the Mission had not developed or implemented an effective tracking system to
ensure that planned audits were performed and submitted within the required timeframe.
Another contributing factor was that audit work did not comply with applicable standards
and regulations. This resulted in audit reports received by RIG/Pretoria that often had to
be sent back to the audit firms for correction or additional work. Although these reports
may have eventually been corrected and resubmitted to RIG/Pretoria, the additional
work required added to their lack of timeliness. (The cause of substandard audit work
will be addressed in the following section of this report.)

As a result, in several cases “catch up” audits were performed to cover multiple years of
expenditures by recipients. For example, USAID/Malawi’s audit plan for fiscal year 2004
included an audit of a recipient of a multiple-year USAID grant. The initial audit report
was rejected by RIG/Pretoria due to significant noncompliance with U.S. Government
Auditing Standards and the Office of Inspector General’s Guidelines for Financial Audits
Contracted by Foreign Recipients. (Guidelines). The audit was subsequently included in
the Mission’s fiscal year 2005 plan with an expanded scope covering nearly three years
of expenditures.

Delayed performance and submission of audit reports reduces USAID’s accountability
over funds awarded to recipients. This also increases the risk that recipients’ financial
records are no longer available for audit, or that their offices may have ceased
operations, making the determination and recovery of potential questioned costs difficult
or impossible. Even when records do exist, or the recipient is still in operation, untimely
audit reports lose their usefulness because management (USAID or recipient) cannot,
based on the reports, implement corrective actions in a timely manner to help prevent
potential fraud, waste and abuse. Total estimated expenditures not audited on a timely
basis amounted to over $6.3 million. Of these estimated expenditures, RIG/Pretoria


                                                                                         5
subsequently issued audit reports for $1.6 million, and rejected the audit reports
received for the remaining $4.7 million as shown in Appendix III.

For the Mission to be able to submit timely audit reports to RIG/Pretoria, it must have a
system to monitor the status of planned audits, and to provide interventions when
targeted milestones are not being met. Therefore, we are making the following
recommendations:

   Recommendation No. 1: We recommend that USAID/Malawi develop and
   implement an audit tracking system to monitor the recipient financial audit
   process to ensure timely submission of reports to RIG/Pretoria. This system
   should, at a minimum, include controls to ensure that:
   • Appropriate timing targets and milestones are set for each audit in the
      Mission’s current audit plan.
   • Audit instructions are sent to recipients prior to the recipient’s fiscal year end
      requesting them to initiate the procurement for the audit.
   • Periodic follow-up is performed to determine the implementation status of all
      planned audits.
   • Corrective actions are taken and documented for audits that are not
      progressing as planned.

   Recommendation No. 2: We recommend that USAID/Malawi obtain and submit
   audit reports for all recipients with delinquent audits.


Standard Statement of Work
Not Used in Every Audit
Summary: Agency policy requires that audit agreements between recipients and
independent auditors contain a standard statement of work (SOW) that incorporates all
the requirements of the OIG Guidelines. Not all of the agreements for financial audits of
USAID/Malawi’s recipients contained a standard SOW that was reviewed and approved
by the Mission. This occurred because USAID/Malawi did not have a system to ensure
that all audit agreements incorporated standard SOWs. The lack of a standard SOW
has resulted in many audits being rejected by RIG/Pretoria due to lack of compliance
with applicable auditing standards and guidelines.

According to the OIG’s Guidelines for Financial Audits Contracted by Foreign Recipients
(Guidelines), a mandatory reference in ADS 591, USAID missions must ensure that
audit agreements between USAID recipients and independent auditors include a
standard statement of work (SOW) containing all of the requirements of the Guidelines.
To ensure that this requirement is complied with, recipients must send all prospective
audit agreements to the cognizant USAID mission for approval prior to finalization, as
stated in paragraph 1.14 of the Guidelines.

On January 10, 2006, RIG/Pretoria requested USAID/Malawi to provide evidence that,
for the eight audit reports submitted, the Mission had reviewed and approved audit
agreements between recipients and auditors, and that those agreements contained
USAID’s standard SOW. The Mission was unable to provide such evidence for any of
the eight audit reports.


                                                                                          6
Although the Mission reported ensuring that some of the recipients and audit firms
received a copy of the OIG Guidelines and a standard SOW template, providing
recipients and auditors with these documents did not constitute the required review and
approval of the audit agreement. Nor did it ensure that the standard SOW had been
included as part of the audit agreement. In addition, since some audits were performed
for the same recipient in different fiscal years, it should not be assumed that the
standard SOW would still be effective for the following year. A new SOW should have
been approved for each fiscal year audit.

Not all of the recipient audits submitted to RIG/Pretoria were performed under
agreements which included the standard SOW because USAID/Malawi did not have a
system in place to ensure that all audit agreements were reviewed and approved by the
Mission prior to the commencement of the audits. Therefore, the Mission could not
ensure that the standard SOW was incorporated into those audit agreements.

Experience has shown that independent audit firms conducting USAID recipient audits
without a standard SOW typically perform “statutory” audit work in accordance with local
standards. Such audits do not address the unique fieldwork and reporting requirements
of USAID audits relating to such areas as testing expenditures for eligibility, allocability,
and compliance with U.S. laws and regulations. Financial audit requirements for USAID
recipients differ substantially from statutory audit requirements within Malawi.
Consequently, audits that are conducted without a Mission-approved agreement
containing the standard SOW, which refers to the audit requirements in the OIG
Guidelines, are less likely to be performed in accordance with U.S. Government Auditing
Standards and/or the OIG Guidelines. This was reflected in the large percentage of
recipient audit reports that RIG/Pretoria rejected due to lack of conformity with those
standards and guidelines. Of the eight reports submitted to RIG/Pretoria, seven (88
percent) were initially rejected due to lack of compliance with applicable standards and
guidelines.

The review and approval of prospective audit agreements, and the inclusion of a
standard SOW in those agreements which references specific USAID audit
requirements, will help prevent audits from being performed that do not comply with U.S.
Government Auditing Standards and/or the OIG Guidelines. Once incorporated into the
audit agreement, the standard SOW becomes binding and should compel the audit firms
to comply with necessary USAID audit requirements. Therefore, we are making the
following recommendation:

   Recommendation No. 3: We recommend that USAID/Malawi develop and
   implement a system to ensure that the Mission reviews, approves and maintains
   a copy of an audit agreement containing a standard statement of work that
   incorporates USAID’s audit requirements for every recipient audit covering each
   individual fiscal year.




                                                                                           7
Did USAID/Malawi ensure that annual audit plans included all
recipients from its award inventory that required a financial
audit?
USAID Malawi did ensure that annual audit plans included all recipients from its award
inventories that required a financial audit.

As required by ADS 591.3.4.2, USAID/Malawi developed award inventories for fiscal
years 2003, 2004, and 2005 which included the required information for each award,
such as contractor/grantee name, type of organization, award number, amount in U.S.
dollars, start/completion dates, prior audits and period covered, receipt date for required
audits, dates for planned audits, and reason(s) for not including an award in the annual
audit plan. The Mission also developed an annual plan for each of those fiscal years
which included nine distinct audits of foreign recipients receiving awards listed in those
inventories.

USAID/Malawi prepared the award inventories and related audit plans as required and
all awards that required audits were included in the audit plans. Mission Order No. 810,
dated June 13, 2000, was comprehensive in its scope of audit policies and procedures
except that it did not include policies and procedures regarding closeout audits and host
country contracts.

Closeout audits are important tools in the control and accountability of USAID funds.
Such audits may be used, among other things, to finalize indirect cost rates and to
determine whether the disposition of USAID-funded assets was properly performed at
the end of a project or activity. A closeout audit of expenditures of USAID funds would
be especially important when a recipient may have expended less than $300,000 in any
single year, but the total award was over $500,000. Such recipients may never have
been subjected to a USAID audit as required. Further, according to ADS 591.3.3.2,
Contract/Grant Officers cannot proceed with the closeout process until final action has
been taken on all audit recommendations.

Regarding host country contracts, 3 Country Contracting Handbook section 3.8 states
that an audit of non-U.S.-based firms shall be a cost-incurred, financial audit performed
by the principal audit agency to the host country or an independent audit agency
acceptable to the USAID Inspector General as set forth in the Strategic Objective
Agreement (SOAG) or a SOAG Implementation Letter. It further adds that the
Guidelines for Financial Audits Contracted by Foreign Recipients (Guidelines) should be
followed in the selection of auditors and that the auditors should observe the Guidelines
in planning, conducting, and reporting the results of the audit. Moreover, section 3.9 of
the Country Contracting Handbook specifically states that “Final payment to the
contractor is withheld until the contractor provides evidence that it has met all of its
obligations under the contract and all required certifications (including acceptance of the
work by the Contracting Agency) have been executed and the contract has been

3
  ADS Glossary defines Host Country Contracting as “A means of program implementation in which USAID
finances, but is not a party to, contractual arrangements between the host country and supplier of goods
and/or services.” ADS 301.5.1a states that when USAID decides to use host country contracting
procedures-it acts as financier and not a contracting party, reserving certain rights of approval and activity
monitoring.


                                                                                                            8
audited, as provided above. The USAID Activity Manager will be notified of contract
closeout and contract files will be maintained in storage at least three years from the
final disbursement under the SOAG.” (emphasis added)

To help ensure that all awards requiring financial and/or closeout audits are considered
in the Mission’s audit plans, we suggest that USAID/Malawi amend Mission Order No.
810 to include policies and procedures for closeout audits and audits of host country
contracts.




                                                                                      9
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Malawi agreed with all three recommendations.

In agreeing with Recommendation No. 1, the Mission presented an improved audit
tracking system. However, the improved audit tracking system still does not assure that the
audit instructions are sent to the recipient prior to the recipients fiscal year end, and does
not record any corrective action taken and documented for audits that are not progressing
as planned. Further, the tracking system should identify audits by agreement/contract
number to ensure all the recipient’s agreements are included in the audit plan. As a result,
a management decision has not been achieved for this recommendation.

In agreeing with Recommendation No. 2, the Mission indicated that, out of five
delinquent audits listed in its audit tracking system, it has submitted one report and
expects to submit the rest by September 30, 2006. There are six delinquent audits listed
in Appendix III. The difference between the Mission’s response relating to five
delinquent audits and the six delinquent audits listed in Appendix III is caused by one
recipient which has two audits for FY2003 and FY2004 listed as delinquent in the
Appendix. The Mission’s tracking system indicates that they intend to have one audit of
this recipient performed to cover all fiscal years not audited. Therefore, a management
decision has been achieved for this recommendation. We acknowledge that the audit
report for Award No. 690-A-00-00-00012-00 has forwarded to RIG/Pretoria.

In agreeing with Recommendation No. 3, the Mission discusses how review and
approval of a standard statement of work (SOW) is ensured through the newly revised
audit tracking system and that the SOWs are maintained on file in the Controller’s Office.
The recommendation states that a copy of an audit agreement containing a standard
statement of work that incorporates USAID’s audit requirements should be kept for each
recipient audit covering each individual fiscal year in accordance with paragraph 1.14 of the
Guidelines. Maintaining a SOW in the Controller’s office does not ensure that the SOW was
incorporated into the audit contract. As a result, management decision has not been
reached for this recommendation.




                                                                                           10
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria performed this audit in accordance with
generally accepted government auditing standards. The audit was performed at the
Regional Inspector General in Pretoria, South Africa. The audit notification was sent on
December 20, 2005 and the audit was performed on March 24 to April 18, 2006.

The audit covered financial audit requirements for USAID/Malawi’s awards to non-U.S.-
based recipients during fiscal years 2003, 2004, and 2005.

The type of evidence examined during the audit included, but was not limited to, award
inventories and audit plans submitted by the Mission for fiscal years 2003-2005,
RIG/Pretoria’s Audit Management Database and archives, and correspondence from the
Mission.

For the most part, we relied on the accuracy and completeness of the award inventories
that were submitted by the Mission to RIG/Pretoria because we believe that the
responsibility for preparing award inventories rests with the Mission’s Audit Management
Officer, who should have the technical capacity to prepare reliable award inventories.
The primary focus of our audit was the development and execution of the annual audit
plans from those award inventories. Thus, with few exceptions, we limited our
procedures to determine whether data in the award inventories were properly used to
develop the audit plans and whether those audit plans were executed in an acceptable
and timely manner. We recognize the limitations of our reliance on the accuracy and
completeness of the award inventories, and hereby disclose this in the audit report--the
primary limitation being that all awards requiring a financial audit may not have been
included in the Mission’s award inventories. Further, expiration dates and total amounts
of awards in inventories may not have been accurate.

With regard to internal controls, we assessed:

•   Award inventories.
•   Audit plans.
•   Mission orders regarding financial audits.


Methodology
To accomplish the audit objectives, we reviewed and analyzed the annual audit plans
and award inventories submitted to RIG/Pretoria for fiscal years 2003, 2004 and 2005 for
USAID/Malawi. We compared audit reports actually submitted to RIG/Pretoria to
planned audits listed in the Mission’s audit plans in order to determine the timeliness of
the submission. We compared the audit plans to the award inventories to determine the
accuracy of the audit plans. To determine recipients requiring closeout audits, we
reviewed the Mission’s award inventories and selected awards above $500,000 that
were not subject to an annual audit in the eleven-month period prior to the program



                                                                                       11
                                                                            APPENDIX I


completion date. The audit also included a review of correspondence between
RIG/Pretoria and the Mission regarding award inventories and annual audit plans. We
also requested additional information from the Mission when required.

For materiality thresholds, we considered the following to be material:

•   Timeliness of submission of audit reports – if the number of acceptable audit reports
    submitted after the nine-month due date was greater than 10 percent of the number
    of planned audits, we considered the lack of timeliness to be material.

•   Delinquent audit reports – any number of delinquent planned audit reports was
    considered to be material.

•   Completeness and accuracy of audit plans – any number of required audits not
    included in the audit plans was considered to be material.

This was one of a total of nine similar audits that we are performing of USAID missions
within the eastern and southern Africa region. As RIG/Pretoria already possesses most
of the information needed to conduct the audits, we did not consider travel to the
locations of the respective missions to be necessary. Any questions regarding audit
procedures or preliminary results were handled via email or telephone.




                                                                                      12
                                                                                          APPENDIX II



MANAGEMENT COMMENTS


MEMORANDUM
TO:                   Jay Rollins, RIG/Pretoria

FROM:                 Curt Reintsma, Mission Director, USAID/Malawi

DATE:                 June 7, 2006

SUBJECT:              USAID/Malawi response to recommendations from Audit of
                      USAID/Malawi’s Compliance with Financial Audit Requirements
                      Regarding Foreign Recipients (Report No. 4-612-06-xxx-P)


USAID management offers the following responses to the three recommendations
contained in the subject audit report:

Recommendation No. 1: We recommend that USAID/Malawi develop and implement
an audit tracking system to monitor the recipient financial audit process to ensure timely
submission of reports to RIG/Pretoria. This system should, at a minimum, include
controls to ensure that:

●          appropriate timing targets and milestones are set for each audit in the Mission’s
           current audit plan;
●          audit instructions are sent to recipients prior to the recipient’s fiscal year end
           requesting them to initiate the procurement for the audit;
●          periodic follow-up is performed to determine the implementation status of all
           planned audits; and
●          corrective actions are taken and documented for audits that are not progressing as
           planned.



U.S. Agency for International
Development                          Tel: +265-1-772455                 International Address:
Malawi Mission                       USA Phone: 202-216-6244            DOS/ Malawi
NICO House                           Fax: +265-1-773181                 2280 Lilongwe Place
P.O. Box 30455                       Http://www.usaid.gov/missions/mw   Washington, DC 20521-2280
LILONGWE 3



                                                                                                    13
                                                                              APPENDIX II


Management Response: USAID/Malawi management agrees with RIG/P’s findings and
the resulting recommendation that USAID/Malawi should develop and implement an
audit tracking system to ensure effective monitoring of the recipient financial audit
process. In March, 2006 USAID/Malawi developed an audit tracking report which
provides the USAID/Mission Management Control Review Committee (MCRC) with the
status of audits under Mission’s FY 2006 audit plan on a periodic basis. However, that
tracking report contained some, but not all, of the elements recommended by RIG/P for
an effective audit tracking system. USAID/Malawi has, therefore, taken the following
measures:

●      Audit tracking report was revised to include milestones and target dates for key
       steps in the recipient audit process for immediate implementation under the FY
       2006 audit plan. (See attached revised tracking report). The audit tracking report
       will be updated with FY 2007 planned audits concurrent with preparation of the
       FY 2007 audit plan. The tracking report is to be updated and circulated to MCRC
       on a monthly basis effective immediately.

●      Mr. Robert Katuya, Financial Analyst, is assigned the responsibility for
       monitoring the progress of these audits and ensuring adherence to the established
       schedules under the close supervision of the AMO.

●      As the Mission recognizes the importance of CTO participation in the recipient
       audit process, in early March 2006, USAID/Malawi CTOs and Team Leaders
       received training by RIG/P auditors in USAID Audit Training for Mission
       Personnel.

Based on the above actions taken, USAID/Malawi requests that Recommendation No. 1
be considered resolved and that this recommendation be closed.

Recommendation No 2: We recommend that USAID/Malawi obtain and submit all
delinquent audit reports to RIG/Pretoria.

Management Response: USAID/Malawi management agrees with RIG/P’s findings
and the resulting recommendation that USAID/Malawi obtain and submit all delinquent
audit reports to RIG/Pretoria. The attached audit tracking report gives the current status
of each delinquent audit/audit report. Of the five audits listed, one audit report for award
# 690-A-00-00-00012-00 has been received at USAID/ Malawi and is being forwarded to
RIG/P this week. It is expected that all audits listed on the FY 2006 audit tracking report
should be submitted to RIG/P by September 30, 2006. Once all audit reports currently
delinquent have been submitted to RIG/P and accepted, this recommendation should be
considered resolved and closed.

Recommendation No. 3: We recommend that USAID/Malawi develop and implement a
system to ensure that the Mission reviews, approves, and maintains a copy of an audit
agreement containing a standard statement of work that incorporates USAID’s audit
requirements for every recipient audit covering each individual fiscal year.



                                                                                         14
                                                                            APPENDIX II


Management Response: USAID/Malawi management agrees with RIG/P’s findings and
the resulting recommendation that USAID/Malawi implement a system to ensure that an
audit agreement containing a standard statement of work incorporating USAID’s audit
requirements be reviewed, approved, and maintained on file for every recipient audit.
USAID/Malawi has already taken the following measures toward this end:

●      The newly revised audit tracking report requires that deadlines be established for
       key steps in the recipient audit process, including approval of the standard
       statement of work and the audit contract.

●      Referring to the audit tracking report, for the three agency contracted audits
       initiated in the current fiscal year (award #s: 690-A-00-02-00060-00; 690-A-00-
       04-00087-00; and 690-G-00-01-000141-0) all SOWs have been properly
       reviewed and approved and are maintained on file in the Controller’s Office.
       Following the recent RIG/P Audit Training, FMO personnel responsible for
       USAID audits are well aware of this requirement and will continue this practice
       for every subsequent audit.

Based on the above actions taken, USAID/Malawi requests that Recommendation No. 3
be considered resolved and that this recommendation be closed.

In addition to the corrective measures described above, USAID/Malawi also plans to take
action in the coming year on RIG/P’s suggestion to update Mission Order 810 to include
policies and procedures for closeout audits and audits of host country contracts. Finally,
USAID/Malawi would like to thank the RIG/P for the audit exercise which highlighted
areas that needed improvement in its audit management program.



Attachment: New Audit Tracking Report




                                                                                        15
                                                                                  APPENDIX III



    LIST OF DELINQUENT AUDITS
     AS OF DECEMBER 31, 2005

                                                                                       # of Days
                                   Recipient’s   Total Amount       Estimated        Between Audit
                                   Fiscal Year     of Award           Annual          Report Due
                                       End         (in US $)       Expenditures        Date and
             Award Number 4                                         (in US $) 5        12/31/05

    1    690-A-00-02-00060-00 6     9/30/2003          894,200            331,818         5487
    2    690-A-00-02-00060-006      9/30/2004        1,100,369            313,575         183 7
    3    690-A-00-00-00012-00       4/30/2004        5,002,433          1,227,843         333
    4    690-G-00-01-00141-006      4/30/2003          744,900            411,388         699
    5    690-A-00-01-00189-00       4/30/2003          918,000            494,479         699
    6    690-A-00-04-00087-006      9/30/2004        6,300,000          1,909,070         183

        Totals                                      14,959,902          4,688,173




4
  ADS 591.3.2.1 requires a foreign recipient to have a single audit performed when it has
expended over $300,000 of USAID funds. This audit should include all awards from which those
funds were disbursed during the period audited. USAID/Malawi had recipients with several
awards.
5
  The Mission’s audit plans for fiscal years 2003-2005 provided the estimated annual
expenditures.
6
  An Agency-Contracted Audit is in process for this recipient.
7
  An Agency-Contracted Audit is in process for this recipient to cover the audit period March 1,
2002 to Jan 31, 2005.


                                                                                              16
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
